                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              LOCAL WORKFORCE INVESTMENT AREA (LWIA)
                                              EXECUTIVE COMPENSATION




                                                                        Date Issued: September 28, 2007
                                                                        Report Number: 02-07-204-03-390
U.S. Department of Labor
Office of Inspector General
Office of Audit
                                                        September 2007

BRIEFLY…                                                LOCAL WORKFORCE INVESTMENT AREA
                                                        EXECUTIVE COMPENSATION
Highlights of Report Number: 02-07-204-03-390, to
the Assistant Secretary for Employment and              WHAT OIG FOUND
Training.                                               1)   Reported total annual compensation ranged
                                                             from a low of $8,120 to a high of $313,004, with
WHY READ THE REPORT                                          a median of $83,369. The average annual
                                                             compensation package reported by LWIAs for
At the request of the Assistant Secretary for                executive positions was $85,049, $89,021, and
Employment and Training, the Office of Inspector             $92,197 for 2004, 2005, and 2006, respectively.
General (OIG), Office of Audit, initiated an audit to        Total compensation consisted of
collect data on the amount and types of                      Salaries/Wages, Fringe Benefits, and Other
compensation paid to Local Workforce Investment              Benefits.
Area (LWIA) executives who were involved in the
administration of local Workforce Investment Act        2) The average Salaries/Wages for the periods
(WIA) formula funds. The request was made after            2004, 2005, and 2006 were $67,331, $69,728,
disclosures of excessive annual compensation paid          and $72,161, respectively. Salaries/Wages
to certain executives of the Central Iowa                  consisted of Base Salary, Bonus, and Other.
Employment and Training Consortium (CIETC),                Seventeen LWIAs reported a total of 19
which raised concerns regarding the amount of              executives whose Base Salary and Bonus
compensation paid to executives of LWIAs                   combined were at least $150,000 for 1 or more
nationwide.                                                years for the period 2004 through 2006.

We requested data, through the states and               3) Reported Fringe Benefits were approximately 27
territories, on LWIA executives who received at least      percent of combined Base Salary and Bonus.
25 percent of their compensation from local WIA            The average annual Fringe Benefits for 2004,
formula funds and were part of one or more of the          2005 and 2006 were $17,224, $18,629, and
following organizations: local grant recipient; local      $19,384, respectively. Fringe Benefits consisted
grant sub-recipient; local fiscal agent; and/or Local      of Health Insurance, Pension, and Other.
Workforce Investment Board (LWIB). We collected
data on all 592 LWIAs identified by states and          4) The reported nationwide average allocations of
territories, encompassing 1,688 executives                 executive compensation to WIA Administration,
representing the three most highly compensated             WIA Program, Non-WIA Administration, and
executives from each LWIA.                                 Non-WIA Program were 39 percent, 37 percent,
                                                           17 percent, and 7 percent, respectively.
WHY OIG DID THE AUDIT
                                                        5) The average local WIA funding reported was
The objective of the audit was to collect data on the      $5.1 million, $5.0 million and $4.7 million for
total compensation packages earned annually by             2004, 2005 and 2006, respectively.
LWIA executives in 2004, 2005, and 2006.
                                                        WHAT OIG RECOMMENDED
READ THE FULL REPORT                                    Although we did not make specific
                                                        recommendations, we suggested that the Assistant
To view the report, including the scope,                Secretary for Employment and Training consider the
methodology, and full agency response, go to:           data provided in this report during ETA’s ongoing
http://www.oig.dol.gov/publicreports/oa/2007/02-07-     monitoring processes.
204-03-390.pdf.
                                                        ETA commented that the report was responsive to
                                                        its needs, and that information from the report would
                                                        be used during ETA policy discussions.
                                                                                    Local Workforce Investment Act
                                                                                           Executive Compensation



Table of Contents
                                                                                                                    PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

        Total Compensation............................................................................................. 8

        Salaries/Wages ................................................................................................... 10

        Fringe Benefits ................................................................................................... 15

        Other Benefits..................................................................................................... 21

        Executive Compensation Allocated to WIA ..................................................... 21

        Relationship Between Local WIA Funding and LWIA Executive
        Compensation ................................................................................................... 24

APPENDICES ............................................................................................................... 27

   A. Background ........................................................................................................ 29

   B. Objective, Scope, Methodology, and Criteria .................................................. 31

   C. Acronyms and Abbreviations ........................................................................... 35

ATTACHMENTS ........................................................................................................... 37

   1. Schedule of Average LWIA Compensation by State

   2. Schedule of Average Local WIA Funding and Compensation Allocation
      Percentages by State

   3. Schedule of Average LWIA Compensation by ETA Region

   4. Schedule of Average Local WIA Funding and Compensation Allocation
      Percentages by ETA Region



U.S. Department of Labor—Office of Inspector General                                                                        1
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation




                       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 02-07-204-03-390
                                                                        Local Workforce Investment Act
                                                                               Executive Compensation



Executive Summary
At the request of the Assistant Secretary for Employment and Training, the Office of
Inspector General (OIG), Office of Audit, initiated an audit to collect data on the amount
and types of compensation paid to Local Workforce Investment Area (LWIA) executives
who were involved in the administration of local Workforce Investment Act (WIA)
formula funds. The request was the result of disclosures about total annual
compensation paid to certain executives of the Central Iowa Employment and Training
Consortium (CIETC), which raised concerns over the compensation paid to executives
of LWIAs nationwide.

On June 15, 2006, Public Law 109-234 was enacted to provide (with limited exceptions
as discussed in Training and Employment Guidance Letter No. 5-06, dated
August 15, 2006) a combined salary and bonus ceiling equal to Federal Executive Level
II for ETA funded recipients and sub-recipients. For Fiscal Year 2006, the salary rate
for a Federal Executive Level II was $165,200. Further, Office of Management and
Budget (OMB) Circulars A-87 and A-122 require compensation for personal services to
be reasonable. According to these circulars, factors to be considered in determining
reasonableness are the extent to which compensation is consistent with that paid for
similar work in the labor market in which the organization competes, and the extent to
which compensation is comparable to that paid for similar work in other activities of the
organization.

We requested data, through the states and territories, on LWIA executives who received
at least 25 percent of their compensation from local WIA formula funds and were part of
one or more of the following organizations: local grant recipient; local grant sub-
recipient; local fiscal agent and/or Local Workforce Investment Board (LWIB).
Executives of one-stop operators and/or service providers were excluded unless the
executive was also an employee of the local administrative entity, local fiscal agent or
LWIB. We collected data on all 5921 reported LWIAs, encompassing 1,688 executives.

Certain data have been provided to ETA under separate cover because they contain
personal information which is not releasable under the Privacy Act of 1974
(5 U.S.C. Section 552a) and other applicable statutes or regulations.

The data included in this report are based on representations of the LWIAs. We did not
seek to validate the data provided by the LWIAs, as our audit objective did not include
assessing the adequacy or sufficiency of the data collected. Accordingly, we do not
express any form of assurance on the reported data.




1
 Data from CIETC was not certified because CIETC was no longer in existence. CIETC Information was provided
by a state official. CIETC data was excluded from our calculations.

U.S. Department of Labor—Office of Inspector General                                                      3
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation



Results

1. Total Compensation data was captured in three major categories: Salaries/Wages,
   Fringe Benefits, and Other Benefits. Total compensation reported over the 3-year
   period 2004 through 2006 was $395.8 million: $311 million, or 78.6 percent, was
   attributable to Salaries/Wages, $82.1 million, or 20.7 percent was attributable to
   Fringe Benefits and the remaining $2.7 million, or 0.7 percent, was attributable to
   Other Benefits.

    Reported total annual compensation ranged from a low of $8,120, a median of
    $83,369, and a high of $313,004 for the period 2004 through 2006. The average
    annual compensation package reported by LWIAs as earned in executive positions
    was:

                                            Average
              Year                      Annual Compensation

              2004                             $85,049
              2005                             $89,021
              2006                             $92,197

2. Salaries/Wages included base salaries (including paid absences), bonuses,
   overtime premiums, deferred compensation, and other. Total Salaries/Wages
   reported for the period 2004 through 2006 were $311 million, or 78.6 percent of total
   compensation. Reported annual Salaries/Wages over the 3-year period ranged from
   a low of $8,120, a median of $65,427, and a high of $246,842. The average annual
   Salaries/Wages were:

                                              Average
              Year                         Salaries/Wages

              2004                             $67,331
              2005                             $69,728
              2006                             $72,161

    Seventeen of 591 LWIAs reported a total of 19 executives whose base salary and
    bonus combined were at least $150,000 for 1 or more years for the period 2004
    through 2006. Further, eight of these executives had a combined base salary and
    bonus of at least $165,200 for one or more period(s).

3. Fringe Benefits were comprised of employer contributions to health insurance,
   pensions, and all other (including Social Security, Medicare, unemployment
   insurance, life insurance, workers’ compensation and disability insurance). For the
   period 2004 through 2006, reported Fringe Benefits totaled $82.1 million and
   accounted for 20.7 percent of total compensation. Over the 3-year period, reported

4                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 02-07-204-03-390
                                                               Local Workforce Investment Act
                                                                      Executive Compensation

   Fringe Benefits were approximately 27 percent of combined base salary (including
   paid absences) and bonus. Reported annual Fringe Benefits ranged from a low of
   $220, a median of $17,106, and a high of $108,757. The average annual Fringe
   Benefits were:

                                                  Average
              Year                             Fringe Benefits

              2004                                $17,224
              2005                                $18,629
              2006                                $19,384

4. Other Benefits were not a significant portion of total compensation. Other Benefits
   totaled $2.7 million, or 0.7 percent, of total compensation for the period 2004 through
   2006. Other Benefits consisted of transportation, severance pay and all other
   (loans, club memberships, travel, housing allowance, and tuition reimbursement).
   The average Other Benefits were:

                                                 Average
              Year                             Other Benefits

              2004                                $494
              2005                                $664
              2006                                $652

   Further, only 15 percent of positions were reported as receiving Other Benefits. For
   those individuals the average benefit was $3,356, $4,507, and $4,314 for 2004,
   2005 and 2006, respectively. Over the 3-year period, their reported annual Other
   Benefits ranged from a low of $19, a median of $1,662 and a high of $84,139.

5. For the last completed LWIA accounting year, the reported nationwide average
   allocations of executive compensation to WIA Administration, WIA Program, Non-
   WIA Administration, and Non-WIA Program were 39 percent, 37 percent, 17 percent,
   and 7 percent, respectively. Generally, program costs are related to the direct
   provision of workforce investment services to participants and employers. These
   activities include training, core, and intensive services as defined in 20 Code of
   Federal Regulations (CFR) Parts 663 and 664. In contrast, administrative costs are
   not related to the direct provision of workforce investment services. The
   administrative functions and activities are specified in 20 CFR Part 667.220 and are
   subject to cost limitations. At the state level, the administrative cost limit is 5 percent
   of the total funds allocated to the state by the U.S. Department of Labor. At the local
   level, administrative cost is limited to 10 percent of funds allocated by the state to
   the local area.




U.S. Department of Labor—Office of Inspector General                                        5
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation




6. From 2004 through 2006, the reported local WIA funding totaled $8.7 billion. Over
   the 3-year period, reported annual funding ranged from a low of $62,520, a median
   of $3.2 million and, a high of $98 million. The average local WIA funding reported
   was:

                                               Average
              Year                           Local WIA Funding

              2004                              $5.1 million
              2005                              $5.0 million
              2006                              $4.7 million


    Generally, as WIA funding levels increased, so did the average total executive
    compensation.

    Although we are not making specific recommendations, we suggest that the
    Assistant Secretary for Employment and Training consider the data provided in this
    report during ETA’s ongoing monitoring processes. Emphasis should be placed on
    ensuring compliance with: (1) compensation limitations set forth in Public Law 109-
    234, and (2) reasonableness of compensation for personal services in accordance
    with OMB Circulars A-87 and A-122.

In response to our draft report, ETA commented that the report was responsive to its
needs, and that information from the report would be used during ETA policy
discussions.




6                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 02-07-204-03-390
                                                                   Local Workforce Investment Act
                                                                          Executive Compensation

U.S. Department of Labor                          Office of Inspector General
                                                  Washington, DC 20210




                         Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U. S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

In response to your request, the Office of Inspector General, Office of Audit, initiated an
audit to collect data on the amount and types of compensation paid annually to LWIA
executives who were involved in the administration of local WIA formula funds.

To accomplish this, a web-based application was used to obtain compensation
information for certain LWIA executives. As agreed with ETA, these individuals
included executives (based on the three most highly compensated organizational
executive positions) who received at least 25 percent of their compensation from local
WIA formula funds.

It was also agreed that these executives would be part of one or more of the following
organizations: local grant recipient, local grant sub-recipient, local fiscal agent and/or
LWIB. This audit excluded executives of one-stop operators and/or service providers
unless the executive was also an employee of the local administrative entity, local fiscal
agent or LWIB.

Certain data have been provided to ETA under separate cover because they contain
personal information which is not releasable under the Privacy Act of 1974
(5 U.S.C. Section 552a) and other applicable statutes or regulations.

We conducted our work in accordance with Generally Accepted Government Auditing
Standards for performance audits. The data included in this report are based on
representations of the LWIAs. We did not seek to validate the data provided by the
LWIAs, as our audit objective did not include assessing the adequacy or sufficiency of
the data collected. Accordingly, we do not express any form of assurance on the
reported data. Our objective, scope, methodology, and criteria are detailed in
Appendix B.




U.S. Department of Labor—Office of Inspector General                                           7
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation


Objective – What were the total compensation packages earned annually by LWIA
Executives?

Results
Total Compensation
The national average annual total compensation package reported by LWIAs as earned
in executive positions were $85,049, $89,021, and $92,197 for 2004, 2005, and 20062,
respectively. Reported total average compensation increased by 4.7 percent from 2004
to 2005 and by 3.6 percent from 2005 to 2006. Reported total annual compensation
ranged3 from a low of $8,120 in California, a median of $83,369 in Illinois, and a high of
$313,004 in Missouri for the period 2004 through 2006.

We captured compensation data in three major categories: Salaries/Wages; Fringe
Benefits; and Other Benefits. Salaries/Wages included base salaries (including paid
absences), bonuses, overtime premiums, deferred compensation, and other. Fringe
Benefits included employer portions of Social Security, Medicare, unemployment
insurance, pensions, health insurance, life insurance, workers’ compensation, and
disability insurance. Other Benefits were comprised of loans to employees, club/society
memberships, personal/family travel, transportation for personal use, housing
allowances, tuition reimbursements, severance pay, and all other.
Total compensation reported over the 3-year period 2004 through 2006 was $395.8
million. As depicted below, $311 million, or 78.6 percent, was attributable to
Salaries/Wages, $82.1 million, or 20.7 percent, was attributable to Fringe Benefits, and
the remaining $2.7 million, or .7 percent, was attributable to Other Benefits. The
national averages during the 3 year period for Salaries/Wages, Fringe and Other
Benefits individually were $69,782, $18,433, and $605, respectively.

                                            Total Compensation Distribution

                                                                        Other Benefits
                                                                      $2.7 million or .7%


                                                Fringe Benefits
                                                $82.1 million or
                                                    20.7%




                                                            Salaries/Wages
                                                            $311 million or
                                                                78.6%




2
    Represents the LWIA/organization(s) accounting periods.
3
    This includes only individuals whose Salaries/Wages and applicable cost element were reported.

8                                                       U.S. Department of Labor—Office of Inspector General
                                                                            Report Number: 02-07-204-03-390
                                                                           Local Workforce Investment Act
                                                                                  Executive Compensation

At the ETA regional level, LWIAs in Region VI San Francisco reported the highest
average total compensation ranging from $99,974 in 2004 to $112,004 in 2006,
exceeding the national average by 18 to 21 percent over the 3-year period. Regions III
(Atlanta) and IV (Dallas) reported the lowest average total compensation of $78,088,
$82,443, and $85,027 for 2004 (Dallas), 2005 (Atlanta), and 2006 (Dallas), respectively.
For a detailed analysis by ETA region, see Attachment 3.




                                   Average Total Compensation

   $120,000
   $110,000
   $100,000
    $90,000
    $80,000
    $70,000
    $60,000
    $50,000
    $40,000
    $30,000
    $20,000
    $10,000
         $0
                                                                                              VI San
    Region    National   I Boston    II Philadelphia   III Atlanta   IV Dallas   V Chicago
                                                                                             Francisco

       2004   $85,049    $85,678       $82,117         $78,483       $78,088     $85,549     $99,974
       2005   $89,021    $87,334       $84,696         $82,443       $82,842     $90,142     $106,134
       2006   $92,197    $91,022       $88,028         $85,349       $85,027     $92,174     $112,004




U.S. Department of Labor—Office of Inspector General                                                     9
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation


The five states with the highest average total compensation reported for 2004, 2005,
and 2006 are represented below: For a detailed analysis by state, see Attachment 1.

                                    Number of         Average Total
                        State        LWIAs            Compensation

                        2004
                         UT             1               $143,329
                         CT             5               $115,838
                         CA             50              $115,276
                         NV             2               $114,736
                         RI             2               $105,598
                        2005
                         UT             1               $154,600
                         CA             50              $123,452
                         CT             5               $122,775
                         NV             2               $121,348
                         NE             3               $118,680
                        2006
                         UT             1               $160,035
                         CA             50              $129,427
                         CT             5               $127,312
                         NE             3               $127,088
                         NV             2               $123,075


Salaries/Wages

Salaries/Wages included base salaries (including paid absences), bonuses, overtime
premiums, deferred compensation, and other. Total Salaries/Wages reported for 2004
through 2006 were $311 million. As depicted in the following chart, $303.8 million or
97.7 percent was attributable to base salary. Bonuses accounted for $3.3 million or 1.1
percent. All other Salaries/Wages totaled $3.9 million or 1.2 percent of total
Salaries/Wages. Reported annual Salaries/Wages ranged3 from a low of $8,120 in
California, a median of $65,427 in Iowa, and a high of $246,842 in Missouri for the
period 2004 through 2006. The average Salaries/Wages for the period 2004, 2005, and
2006 were $67,331, $69,728, and $72,161, respectively.




10                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 02-07-204-03-390
                                                                                                Local Workforce Investment Act
                                                                                                       Executive Compensation




                                              Composition of Salaries/Wages
                                                            ($311 Million)


                                                         Bonus          All Other
                                                     $3.3 million or $3.9 million or
                                                          1.1%            1.2%
                                                                                          Base Salary

                                                                                          Bonus

                                                                                          All Other

                                                                Base Salary
                                                               $303.8 million
                                                                 or 97.7%




Base Salary

Base Salaries totaled $303.8 million and accounted for 97.7 percent of Salaries/Wages
for the period 2004 through 2006. Average base salaries for the period were $65,731 in
2004, $68,044 in 2005, and $70,643 in 2006.

Of the 4,456 executive positions included in the chart below, 66 percent (24 percent +
42 percent) reported annual base salaries under $75,000 for the period 2004 through
2006.

                                                                        Base Salary Distribution
           Number of Executive Positions




                                           700
                                           600
                                           500
                                           400
                                                                                42%
                                           300
                                                                                                           10%
                                           200          24%
                                                                                         24%
                                           100
                                             0
                                                                           $50,000 -   $75,000 -        greater than
                                                  less than $50,000
                                                                            $74,999     $99,999          $100,000
                                           2004         412                     584       315               122
                                           2005         370                     637       353               153
                                           2006         309                     636       384               181




U.S. Department of Labor—Office of Inspector General                                                                       11
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation


Bonus

Bonuses totaled $3.3 million for the period 2004 through 2006. For executives who
received a bonus, the average was $3,343, $3,653, $3,027, in each case nearly five
percent of base salary for 2004, 2005, and 2006, respectively4. Over the 3-year period
from 2004 through 2006, an average of 22 percent of executive positions5 was reported
as receiving bonuses. As shown below, most bonuses received by executives were
less than $5,000.


                                                                   Bonus Distribution
                                                   (For executive positions receiving employer pension contribution)

                                        300
                 Number of Executives




                                        250

                                        200

                                        150

                                        100

                                         50

                                          0
                                                                                               $10,000 to
                                               less than $5,000 $5,000 to $9,999                                   at least $15,000
                                                                                                $14,999
                                        2004         259                     34                      16                   7
                                        2005         280                     45                      17                  11
                                        2006         256                     37                      9                    8




Of those executive positions reporting a bonus, 18 percent, 21 percent, and 17 percent
received a bonus of $5,000 or greater for 2004, 2005, and 2006, respectively. For
details pertaining to bonuses by individuals, see “Schedule of LWIA Salaries, Bonuses,
and Other Compensation”, which was provided under separate cover.




4
  In some instances, 2006 bonus data may not have been reported as the accounting year may not have been
completed.
5
  Includes executives who worked at two LWIAs: 3 executives in 2004, 3 executives in 2005, and 1 executive in
2006.

12                                                                         U.S. Department of Labor—Office of Inspector General
                                                                                               Report Number: 02-07-204-03-390
                                                                    Local Workforce Investment Act
                                                                           Executive Compensation

Combined Base Salary and Bonus

Combined base salary and bonus totaled $307.1 million for the period 2004 through
2006. Overall, the average national combined base salary and bonus earned by LWIA
executive positions was $66,469, $68,897 and $71,264 for 2004, 2005, and 2006,
respectively.

As shown below, regional averages for base salary and bonus ranged from $61,507 to
$82,974. Region VI San Francisco reported the highest average base salary and
bonus, ranging from $77,202 in 2004 to $82,974 in 2006. Region IV Dallas reported the
lowest, ranging from $61,507 in 2004 to $66,063 in 2006. For a detailed analysis by
ETA region, see Attachment 3.


                                   Average Base Salary and Bonus
                                            By Region
 $90,000

 $80,000

 $70,000

 $60,000

 $50,000

 $40,000

 $30,000

 $20,000

 $10,000
 Region
     $0
           National     I Boston    II Philadelphia   III Atlanta   IV Dallas   V Chicago   VI San Francisco

    2004   $66,469      $66,627        $64,752        $62,621       $61,507      $66,145        $77,202
    2005   $68,897      $67,609        $66,348        $65,625       $64,526      $69,106        $80,001
    2006   $71,264      $70,717        $69,053        $67,886       $66,063      $71,105        $82,974




U.S. Department of Labor—Office of Inspector General                                               13
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation


Combined Salary and Bonus Limitation

On June 15, 2006, President Bush signed into law an emergency supplemental
appropriations bill, Public Law 109-234. Section 7013 limits salary and bonus
compensation for individuals who are paid by funds appropriated to the Employment
and Training Administration. Title VII, Section 7013 states:

          None of the funds appropriated in Public Law 109-149 or prior Acts under
          the heading ‘Employment and Training’ that are available for expenditure
          on or after the date of enactment of this section shall be used by a
          recipient or subrecipient of such funds to pay the salary and bonuses of an
          individual, either as direct costs or indirect costs, at a rate in excess of
          Executive Level II, except as provided for under section 101 of Public Law
          109-149. . . .

For Fiscal Year 2006, Federal Executive Level II was set at $165,200. LWIAs reported
eight executives whose combined base salary and bonus was at least $165,200 for one
or more period(s) during 2004 through 2006. Further, OMB Circulars A-87 and A-122
require compensation for personal services to be reasonable. According to these
circulars, factors to be considered in determining reasonableness are the extent to
which compensation is consistent with that paid for similar work in the labor market in
which the organization competes, and is comparable to that paid for similar work in
other activities of the organization.

For informational purposes Schedules 3 and 4 provided under separate cover, contain
executives with a reported combined salary and bonus of at least $150,000 during 2004
through 2006. Seventeen LWIAs reported a total of 196 executives whose base salary
and bonus combined were at least $150,000 for one or more years for the period 2004
through 2006, and were thus approaching the salary cap imposed in June 2006. The
combined base salary and bonus for these executives totaled $7.7 million or
approximately 2.5 percent of the total combined base salary and bonus category.

For those executive positions that received a bonus and had at least $150,000 of
combined base salary and bonus, the average bonus reported was $20,088 for seven
executives, $27,050 for six executives and $20,275 for four executives during 2004,
2005, and 2006, respectively. Bonuses received ranged from $7,000 to almost
$51,000. The national average for executives who received a bonus ranged from
$3,000 to $3,700. Details pertaining to these executives are shown in the “Schedule of
LWIA Salaries, Bonuses, and Other Compensation, Combined Salary and Bonus of at
Least $150,000”, which was provided under separate cover.




6
    Excludes one executive who worked at two LWIAs.


14                                               U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 02-07-204-03-390
                                                           Local Workforce Investment Act
                                                                  Executive Compensation



All Other Salaries/Wages

During the period 2004 through 2006, Other Salaries/Wages totaled $3.9 million or 1.2
percent of the total Salaries/Wages category. Other Salaries/Wages included overtime
premiums, deferred compensation, and other. Only a small portion of executives
received Other Salaries/Wages. Other Salaries/Wages were not a significant part of
total compensation.


Fringe Benefits

Reported Fringe Benefits totaled $82.1 million and accounted for 20.7 percent of total
compensation for the period 2004 through 2006. Fringe Benefits were comprised of
employer contributions to health insurance, pensions, and all other (including Social
Security, Medicare, unemployment insurance, life insurance, workers’ compensation
and disability insurance). Reported annual Fringe Benefits ranged3 from a low of $220
in Massachusetts, a median of $17,106 in New York, and a high of $108,757 in
California for the period 2004 through 2006. The average annual Fringe Benefits for
2004, 2005 and 2006 were $17,224, $18,629, and $19,384, respectively.

Over the 3-year period, Fringe Benefits were approximately 27 percent of combined
base salary (including paid absences) and bonus. For those individuals whose combine
base salary and bonus was at least $150,000, fringe benefit rates over the 3-year period
were lower than the national averages at less than 21 percent. This is likely due to
fringe benefits (which are capped or fixed in amount) being spread over a larger
combined salary and bonus base.

As depicted below, total Fringe Benefits reported over the 3-year period 2004 through
2006 was $82.1 million. Of that amount, $29.2 million, or 35.6 percent, was attributable
to health insurance, $24.2 million, or 29.4 percent was attributable to pensions and the
remaining $28.7 million, or 35 percent, was attributable to all other fringe benefits.




U.S. Department of Labor—Office of Inspector General                                  15
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation


                                  Composition of Fringe Benefits
                                        ($82.1 Million)



                                                          Health
                                                        Insurance
                                       Other
                                                      $29.2 million or
                                  $28.7 million or
                                                           35.6%
                                        35%



                                              Pensions
                                           $24.2 million or
                                                29.4%




At the ETA regional level, Fringe Benefits ranged between $14,788 and $26,104.
Region VI San Francisco reported the highest average Fringe Benefits, ranging from
$20,820 in 2004 to $26,104 in 2006. Region III Atlanta reported the lowest average
Fringe Benefits, ranging from $14,788 in 2004 to $16,335 in 2006. For a detailed
analysis by ETA region, see Attachment 3


                                        Average Fringe Benefits
                                              By Region
 $30,000


 $25,000


 $20,000


 $15,000


 $10,000


  $5,000


     $0
 Region                                                                                           VI San
            National   I Boston     II Philadelphia    III Atlanta       IV Dallas   V Chicago
                                                                                                 Francisco
     2004   $17,224    $17,516         $16,409         $14,788           $15,759      $17,856    $20,820
     2005   $18,629    $18,474         $17,070         $15,791           $17,167      $19,019    $24,093
     2006   $19,384    $19,466         $17,906         $16,335           $17,667      $19,189    $26,104




16                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 02-07-204-03-390
                                                                                           Local Workforce Investment Act
                                                                                                  Executive Compensation



Pension Contributions

From 2004 through 2006, employer pension contributions totaled $24.2 million, or 29.4
percent, of Fringe Benefits totaling $82.1 million. On a nationwide basis including all
reported executive positions, the average employer pension contributions for 2004,
2005, and 2006 were $4,858, $5,505, and $5,889, respectively.

LWIAs reported that 83.2 percent of executive positions received an employer pension
contribution with an average employer contribution equal to 9.4 percent of combined
base salary and bonus. The average employer pension contributions for those
individuals in 2004, 2005, and 2006 were $5,860, $6,578, and $7,102 per executive,
respectively.




                                         Average Pension Compared to
                                         Combined Base Salary & Bonus
                                  (For executive positions receiving employer pension contribution)




                        $80,000                       $6,578            $7,102
                                    $5,860
                        $70,000
                        $60,000                                                                       Pension
                        $50,000
               Amount




                                                                          $71,608                     Base Salary & Bonus
                        $40,000       $66,594           $69,227

                        $30,000
                        $20,000
                        $10,000
                            $0
                                    2004              2005              2006
                                                      Year




As depicted in the following distribution analysis for the period 2004 through 2006,
3,148 of 3,706, or approximately 85 percent (49 percent + 36 percent), of executive
positions that reported pension contributions reported an employer contribution of less
than $10,000.




U.S. Department of Labor—Office of Inspector General                                                                        17
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation


                                   Employer Pension Contribution Distribution Analysis
                                       (For executive positions receiving employer pension contribution)
                            700

                            600
     Number of Executives


                            500

                            400     49%

                            300                     36%

                            200                                     7%
                                                                                   4%
                                                                                                  2%            2%
                            100

                              0
                                   less than      $5,000 to     $10,000 to      $15,000 to     $20,000 to   greater than
                                    $5,000         $9,999        $14,999         $19,999        $24,999       $25,000
                            2004     642            405             77             37              19            8
                            2005     624            445            102             47              28           20
                            2006     557            475            114             46              27           33




Health Insurance

From 2004 through 2006, health insurance totaled $29.2 million, or 35.6 percent, of total
Fringe Benefits of $82.1 million. On a nationwide basis including all reported positions,
the average employer health insurance contribution for 2004, 2005, and 2006 was
$6,189, $6,640, and $6,830 per executive, respectively.

Eighty-eight percent of all reported LWIA executive positions received employer health
insurance contributions. For those individuals, health insurance contributions
represented 10.8 percent of their combined total base salary and bonus. As depicted in
the following chart, the average reported employer health insurance contribution for
those individuals in 2004, 2005, and 2006 was $7,033, $7,525, and $7,755,
respectively.




18                                                               U.S. Department of Labor—Office of Inspector General
                                                                                     Report Number: 02-07-204-03-390
                                                                                       Local Workforce Investment Act
                                                                                              Executive Compensation


                                     Average Health Insurance Compared to
                                        Combined Base Salary & Bonus
                            (For executive positions receiving employer health insurance contribution)




                        $80,000                       $7,525          $7,755
                                      $7,033
                        $70,000
                        $60,000                                                                   Health Insurance
                        $50,000
               Amount




                                                                        $71,238                   Base Salary & Bonus
                        $40,000        $66,307         $68,946

                        $30,000
                        $20,000
                        $10,000
                            $0
                                     2004             2005            2006
                                                      Year




At the ETA regional level, employer health insurance contributions ranged from $5,358
to $8,917. Region I Boston reported the highest average health insurance in 2005 and
2006 and Region V Chicago reported the highest in 2004 while Region III Atlanta
reported the lowest average health insurance in each year. Details of the average
Health Insurance by region are as follows:




U.S. Department of Labor—Office of Inspector General                                                                    19
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation


                                                   Health Insurance - National Average
                                                    Compared to Regional Averages
                                        (For executive positions receiving employer health insurance contribution)
     $10,000

      $9,000

      $8,000

      $7,000

      $6,000

      $5,000

      $4,000

      $3,000

      $2,000

      $1,000

        $0
     Region                                                                                                              VI San
               National                         I Boston    II Philadelphia    III Atlanta     IV Dallas    V Chicago
                                                                                                                        Francisco
        2004   $7,033                           $7,826         $7,397           $5,358          $6,612        $8,054     $6,940
        2005   $7,525                           $8,565         $7,800           $5,686          $6,916        $8,429     $7,681
        2006   $7,755                           $8,917         $8,090           $5,809          $7,319        $8,489     $8,017




As depicted in the following distribution analysis for the period 2004 through 2006,
2,919 of 3,926, or 74 percent (34 percent + 40 percent) of those executive positions
receiving an employer health Insurance benefit reported a contribution of under
$10,000.


                                                      Health Insurance Distributions
                                         600
                 Number of Executives




                                         500

                                         400
                                                                        40%
                                         300
                                                      34%
                                         200                                                                 6%
                                                                                             20%
                                         100

                                            0
                                                   less than         $5,000 to           $10,000 to        at least
                                                    $5,000            $9,999              $14,999          $15,000
                                        2004          469                511                 227             54
                                        2005          447                537                 271             80
                                        2006          426                529                 276             99




20                                                                      U.S. Department of Labor—Office of Inspector General
                                                                                            Report Number: 02-07-204-03-390
                                                             Local Workforce Investment Act
                                                                    Executive Compensation



All other fringe benefits

From 2004 through 2006, all other fringe benefits totaled $28.7 million, or 35 percent, of
total fringe benefits of $82.1 million. Other fringe benefits included employer
contributions to Social Security, Medicare, unemployment insurance, life insurance,
workers’ compensation and disability insurance. For the period 2004 through 2006,
other fringe benefits equaled 9.3 percent of combined base salary and bonus. For
2004, 2005, and 2006, the average other fringe benefits were $6,177, $6,484, and
$6,665, respectively.

Other Benefits

From 2004 to 2006, Other Benefits were not a significant portion of total compensation,
totaling $2.7 million, or 0.7 percent, of total compensation of $395.8 million. Other
Benefits consisted of transportation ($1.1 million), severance pay ($970,000) and all
other ($658,000) (loans, club memberships, travel, housing allowance, and tuition
reimbursement). The average national Other Benefits for the period 2004 through 2006
were $494, $664, and $652, respectively.

Further, only 15 percent of positions were reported as receiving Other Benefits. For
those individuals the average benefit was $3,356, $4,507, and $4,314 for 2004, 2005
and 2006, respectively. Over the 3-year period, their reported annual Other Benefits
ranged from a low of $19 in Illinois, a median of $1,662 in Tennessee/South Carolina
and a high of $84,139 (severance pay) in California.


Executive Compensation Allocated to WIA

For the last completed LWIA accounting year, data were gathered on the allocation of
executive compensation. Data were gathered in four categories: WIA Administration,
WIA Program, Non-WIA Administration, and Non-WIA Program.

Generally, program costs are related to the direct provision of workforce investment
services to participants and employers. These activities include training, core, and
intensive services as defined in 20 CFR Parts 663 and 664. In contrast, administrative
costs are not related to the direct provision of workforce investment services.
Administrative functions and activities are specified in 20 CFR Part 667.220 and include
such things as:

   •   overall general administrative functions (accounting, budgeting, procurement,
       property management, personnel, payroll, audit, general legal services and
       developing systems for administrative functions);

   •   oversight and monitoring responsibilities related to WIA administrative functions;



U.S. Department of Labor—Office of Inspector General                                    21
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation

     •   costs of goods and services required for administrative functions;

     •   travel costs incurred for carrying out administrative activities or the overall
         management of the WIA system;

     •   costs of information systems related to administrative functions; and

     •   continuous improvement activities based on the purpose of the activity to be
         improved.

Administrative costs are subject to cost limitations. At the state level, the administrative
cost limit is 5 percent of the total funds allocated to the state by the U.S. Department of
Labor. At the local level, administrative cost is limited to 10 percent of funds allocated
by the state to the local area.

The nationwide average LWIA reported executive compensation allocations to WIA
Administration, WIA Program, Non-WIA Administration, and Non-WIA Program were as
follows:

                            WIA Administration            39 percent
                            WIA Program                   37 percent
                            Non-WIA Administration        17 percent
                            Non-WIA Program                7 percent
                                                         100 percent

Further, approximately half of all reported executive positions allocated at least 25
percent to the WIA program function. Of those positions, over two thirds charged at
least 50 percent to the WIA program function.

ETA Region III Atlanta had the highest average allocation to WIA Administration
function with 42 percent and Region VI San Francisco had the highest average
allocation to WIA Program function with 46 percent. See Attachment 4 for details.




22                                          U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 02-07-204-03-390
                                                                                             Local Workforce Investment Act
                                                                                                    Executive Compensation



                                                   Average Salary Allocation by Region

                             50
                             45
                             40
                             35
                   Percent

                             30
                             25
                             20
                             15
                             10
                             5

                 Region 0                                             II                                                VI San
                                       National   I Boston                    III Atlanta    IV Dallas     V Chicago
                                                                 Philadelphia                                          Francisco
     WIA Adminstration                   39            38            35           42             41           39          36
     WIA Program                         37            41            40           36             25           35          46
     Non-WIA Administration              17            13            15           16             23           19          12
     Non-WIA Program                      7            8             10            6             11              7        6




The 10 states/territories with the highest average reported WIA Program function
allocations are presented below:

                                              10 Highest States/Territories
                                          Compensation Allocated to WIA program

                   100%


                     80%


                     60%


                     40%


                     20%


                        0%
                                  HI       ID     NH        WV     AZ      PR      MD       GA        IN    SC
                                                                      States




See Attachment 2 for details.


U.S. Department of Labor—Office of Inspector General                                                                               23
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation


Relationship Between Local WIA Funding and LWIA Executive Compensation

From 2004 through 2006, the reported local WIA funding totaled $8.7 billion. Over the
3-year period, reported annual local WIA funding ranged from a low of $62,520 in
Arizona, a median of $3.2 million in Michigan, and a high of $98 million in New York.
The national average annual local WIA funding reported for 2004, 2005, and 2006 was
$5.1 million, $5 million, and $4.7 million, respectively.

To determine if a relationship existed between WIA funding and compensation, data
covering the 3-year period were grouped into six local WIA funding levels: under $2
million, $2 to $5 million, $5 to $10 million, $10 to $20 million, $20 million to $50 million,
and over $50 million. The following chart summarizes the results and illustrates that as
local WIA funding levels increased, so did the average total executive compensation.



                                              Local WIA Funding to Average LWIA Executive Compensation

                                           $180
      Average LWIA Executive




                                           $160
                                           $140
          Compensation




                                           $120
                               Thousands




                                           $100
                                                                                                                    2004
                                            $80
                                            $60                                                                     2005
                                            $40                                                                     2006
                                            $20
                                             $0
                                                  less than    $2-$5     $5-$10     $10-$20   $20-$50    over $50
                                                  $2 million   million   million    million   million     million

                                                                          Local WIA Funding




For those executives with a combined salary and bonus of at least $150,000, there was
no consistent relationship between local WIA funding and total compensation. Local
WIA funding for these executives ranged from $1.6 million to $98 million during the
period 2004 through 2006. Details pertaining to these executives are shown in the
“Schedule of Total LWIA Compensation Data, Combined Salary and Bonus of at Least
$150,000”, which was provided under separate cover.

Further, although total compensation increased with funding, total compensation as a
percentage of funding consistently decreased. This indicates that significant increases
in funding have modest effects on average total compensation.




24                                                                       U.S. Department of Labor—Office of Inspector General
                                                                                             Report Number: 02-07-204-03-390
                                                                                               Local Workforce Investment Act
                                                                                                      Executive Compensation




                                    Total Compensation As A Percentage Of Local WIA Funding

                                 6.50%
                                 6.00%
                                 5.50%
                                 5.00%
                  Compensation



                                 4.50%                                                                       2004
                                 4.00%
                                 3.50%                                                                       2005
                                 3.00%
                                 2.50%                                                                       2006
                                 2.00%
                                 1.50%
                                 1.00%
                                 0.50%
                                 0.00%
                                         less than    $2-$5      $5-$10    $10-$20    $20-$50 over $50
                                         $2 million   million    million    million    million million
                                                                Local WIA Funding




*             *                                *                    *                   *                *           *
Although we are not making specific recommendations, we suggest that the Assistant
Secretary for Employment and Training consider the data provided in this report during
ETA’s ongoing monitoring processes. Emphasis should be placed on ensuring
compliance with: (1) compensation limitations set forth in Public Law 109-234, and (2)
reasonableness of compensation for personal services in accordance with OMB
Circulars A-87 and A-122.

Agency Response

In response to our draft report, ETA commented that the report was responsive to its
needs, and that information from the report would be used during ETA policy
discussions.



Elliot P. Lewis
May 7, 2007




U.S. Department of Labor—Office of Inspector General                                                                      25
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-07-204-03-390
                                                       Local Workforce Investment Act
                                                              Executive Compensation




Appendices




U.S. Department of Labor—Office of Inspector General                              27
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-07-204-03-390
                                                           Local Workforce Investment Act
                                                                  Executive Compensation

                                       APPENDIX A
BACKGROUND

Under Title I of WIA, the workforce investment system provides a framework for delivery
of workforce investment activities at the state and local levels. As part of its
responsibility, each state’s Governor is required to designate LWIAs in the state. These
LWIAs are charged with carrying out WIA at the local level. As of September, 2006, the
states and territories reported that 592 LWIAs existed to carry out its mission.

Disclosures about total annual compensation paid to certain executives employed by
one local LWIA organization, CIETC, raised concerns over the compensation paid to
executives of LWIAs. An Iowa state audit released March 31, 2006 found that CIETC
paid its three top executives $1.8 million over a 30-month period. These executives
included the chief executive officer, chief operating officer, and chief accountant.

To determine if this was a nationwide problem, the Assistant Secretary for Employment
and Training requested that the OIG collect data on the amount and types of
compensation paid to LWIA executives who were involved in the administration of local
WIA funds.

On June 15, 2006, Public Law 109-234 was enacted to provide (with limited exceptions
as discussed in Training and Employment Guidance Letter No. 5-06, dated
August 15, 2006) a combined salary and bonus ceiling equal to Federal Executive Level
II for ETA funded recipients and sub-recipients. For Fiscal Year 2006, the salary rate
for a Federal Executive Level II was $165,200.




U.S. Department of Labor—Office of Inspector General                                   29
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-07-204-03-390
                                                                Local Workforce Investment Act
                                                                       Executive Compensation

                                                                                APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

The Office of Inspector General conducted an audit to collect data on the amount of
compensation paid to LWIA executives who were involved in the administration of local
WIA formula funds.

The objective was to collect data on the total compensation packages earned annually
by LWIA executives.

Scope

We conducted our work in accordance with Generally Accepted Government Auditing
Standards for performance audits. The data included in this report are based on
representations of the LWIAs. We did not seek to validate the data provided by the
LWIAs, as our audit objective did not include assessing the adequacy or sufficiency of
the data collected. Accordingly, we do not express any form of assurance on the
reported data.

In conjunction with ETA staff, the OIG developed a LWIA data collection instrument and
determined the types of individuals and organizations that would be included under this
audit. As agreed, these individuals included executives (based on the three most highly
compensated organizational executive positions) who received at least 25 percent of
their compensation from local WIA formula funds and were employed by one or more of
the following organizations:

   •    Local grant recipient defined by statute as the chief elected official (or a
        consortium of chief elected officials) for the local area.

   •    Local grant sub-recipient designated by the grant recipient to assist in
        administering the program in the local area (administrative entity).

   •    Local fiscal agent designated by the grant recipient to manage the disbursement
        of funds for the local area.

   •    LWIB which advises the local grant recipient about local programs and is
        responsible for the functions contained in 20 CFR Part 661.305.

Data were not collected on executives of one-stop operators and/or service providers
unless the executive was also an employee of the local administrative entity, local fiscal
agent, or LWIB.



U.S. Department of Labor—Office of Inspector General                                       31
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation

Executive compensation and background data was collected from all 591 reported
LWIAs in 54 states and territories including the District of Columbia, Guam, Puerto Rico,
and the Virgin Islands. CIETC was excluded as it is no longer in existence.

The audit covered the LWIAs' organizational accounting periods 2004 through 2006.
LWIA executive compensation data was collected through a website created by DOL
OIG from November 15, 2006 to March 1, 2007.

Methodology

To gather the data on the amount of compensation earned annually by LWIA
executives, a web-based application was developed that encompassed input from 592
reported local areas and review of the data by 54 states and territories. The data
collection instrument consisted of three areas: LWIA Background; LWIA Organizational
Hierarchy; and Compensation. The compensation section included the identification of
the LWIA’s three most highly compensated executive positions and a detailed
compensation worksheet for each executive position and individual.

Each LWIA was required to prepare and certify the requested data7. Upon certification
of the data, each LWIA submitted the data package to the state or territory via the Web.
The state or territory was responsible for reviewing the LWIA data package and
submitting it to the OIG.

In total, we collected over 1,700 completed compensation worksheets encompassing
1,688 executives, which served as the basis for the analyses. We analyzed the
responses to identify unusual, incomplete, or inconsistent responses, and followed up
with the LWIAs to the extent possible where it was considered significant. We did not
seek to validate the responses, as our work was not designed to draw any conclusions
with respect to the adequacy or sufficiency of the data collected.

For analytical purposes, we annualized part-year salaries and fringe benefits where
considered appropriate. In addition, there were instances where two or more individuals
occupied an executive position, or one individual occupied multiple executive positions.
In those cases, we obtained a compensation worksheet for each person and each
executive position. Additionally, there were instances where LWIAs provided
compensation data for executives with WIA allocation percentages of less than 25
percent. Inclusions of those individuals had no significant impact on overall results, and
have accordingly been included.




7
 Data from CIETC was not certified because CIETC was no longer in existence. CIETC Information was provided
by a state official. CIETC data was excluded from our calculations.

32                                              U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 02-07-204-03-390
                                                          Local Workforce Investment Act
                                                                 Executive Compensation



Criteria

20 CFR Part 652 et al., Workforce Investment Act; Final Rules

OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments

OMB Circular A-122, Cost Principles for Non-Profit Organizations

Public Law 105-220, August 7, 1998 - Workforce Investment Act

Public Law 109-234, June 15, 2006 - Emergency Supplemental Appropriations Act for
Defense, the Global War on Terror, and Hurricane Recovery, 2006

Training and Employment Guidance Letter No. 5-06, August 15, 2006




U.S. Department of Labor—Office of Inspector General                                 33
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-07-204-03-390
                                                         Local Workforce Investment Act
                                                                Executive Compensation



                                                                        APPENDIX C
ACRONYMS AND ABBREVIATIONS


CFR                  Code of Federal Regulations

CIETC                Central Iowa Employment and Training Consortium

ETA                  Employment and Training Administration

LWIA                 Local Workforce Investment Area

LWIB                 Local Workforce Investment Board

OIG                  Office of Inspector General

OMB                  Office of Management and Budget

USC                  United States Code

WIA                  Workforce Investment Act




U.S. Department of Labor—Office of Inspector General                                35
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




36                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-07-204-03-390
                                                       Local Workforce Investment Act
                                                              Executive Compensation




Attachments




U.S. Department of Labor—Office of Inspector General                              37
Report Number: 02-07-204-03-390
Local Workforce Investment Act
Executive Compensation




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                                 U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-07-204-03-390
                                                       Local Workforce Investment Act
                                                              Executive Compensation

                                                               ATTACHMENT 1




      SCHEDULE OF AVERAGE LWIA COMPENSATION BY STATE




U.S. Department of Labor—Office of Inspector General
Report Number: 02-07-204-03-390
         Schedule of Average LWIA Compensation by State (UNAUDITED)                                                                                                                                                          Attachment 1
             Annualized Base Salary               Bonus                  Salary and Bonus           Other Salary Components                   Annualized Fringe Benefits                       Other Benefits                       All Compensation
              Reported for Year (A)        Reported for Year (B)      Reported for Year (A+B)         Reported for Year (C)                     Reported for Year (D)                       Reported for Year (E)            Reported for Year (A+B+C+D+E)


                                                                                                                                                  %                 %                %
                                                                                                                                                 Sal +             Sal +            Sal +
CT ST        2004      2005      2006      2004       2005    2006    2004      2005      2006      2004       2005        2006        2004      Bns     2005      Bns     2006     Bns     2004       2005       2006         2004      2005       2006
  1 AK       $69,651   $72,885   $72,824       $0        $0      $0   $69,651   $72,885   $72,824       $0            $0          $0   $19,928     29    $24,608     34 $28,941       40     $328      $1,077     $1,493       $89,907    $98,570   $103,258
  2 AL        70,396    72,586    76,740      200       700     786    70,596    73,286    77,526          0           0           0    16,761     24     17,234     24    18,263     24           0          0          0      87,357     90,520     95,789
  3 AR        46,538    46,757    50,025      714       525     589    47,252    47,281    50,614      782        289              0    15,970     34     15,913     34    16,270     32      193        193        211         64,197     63,676     67,095
  4 AZ        57,007    61,604    63,152    1,133         0       0    58,139    61,604    63,152    2,233             0           0    13,323     23     15,810     26    15,932     25      103        139        163         73,798     77,552     79,247
  5 CA        87,339    90,312    93,254      689       679     513    88,028    90,991    93,767    1,445       1,479       2,331      24,887     28     29,682     33    31,692     34      916       1,300      1,637       115,276    123,452    129,427
  6 CO        70,540    70,291    70,684      179       284     404    70,718    70,576    71,087      543        525         523       16,095     23     15,979     23    17,247     24      360       1,117      3,469        87,717     88,197     92,327
  7 CT        89,670    93,726    97,469      450     1,167   1,005    90,120    94,893    98,474      581        693         694       24,505     27     26,534     28    27,480     28      632        654        664        115,838    122,775    127,312
  8 DC        94,020    96,989   105,803          0       0   2,667    94,020    96,989   108,470          0           0           0    10,345     11     10,708     11    11,586     11           0          0          0     104,365    107,698    120,056
  9 DE        55,217    62,196    59,954          0       0       0    55,217    62,196    59,954          0           0           0    20,137     36     24,532     39    15,248     25           0     394             0      75,354     87,121     75,202
 10 FL        71,483    75,381    77,032    2,088     2,859   2,469    73,571    78,240    79,501      859       1,091        474       16,255     22     17,451     22    17,913     23     1,036       671        987         91,721     97,454     98,875
 11 GA        58,222    59,246    60,052       46       260      89    58,267    59,506    60,141    1,416       1,016        766       13,470     23     13,979     23    14,037     23       63        259        307         73,217     74,760     75,252
 12 GU        66,319    63,774    64,799          0       0       0    66,319    63,774    64,799          0           0           0    15,681     24     14,967     23    13,984     22           0          0          0      82,000     78,741     78,782
 13 HI        46,444    53,508    57,103          0       0       0    46,444    53,508    57,103      234        534         544       13,146     28     14,439     27    19,642     34       38         43         19         59,862     68,524     77,308
 14 IA        53,881    56,370    56,762      710       721     171    54,591    57,091    56,933      520        558         580       14,690     27     15,407     27    15,393     27       48         70       1,056        69,848     73,126     73,963
 15 ID        51,850    51,908    54,444          0       0       0    51,850    51,908    54,444          0           0           0    11,292     22     12,072     23    12,494     23           0          0          0      63,142     63,980     66,938
 16 IL        63,748    67,607    70,714      348       565     302    64,096    68,172    71,016      515        684         423       15,511     24     17,422     26    17,659     25      129        835        146         80,251     87,112     89,236
 17 IN        69,535    75,743    69,956      545     1,739     128    70,080    77,482    70,084    2,954       3,627       8,798      17,448     25     18,837     24    17,002     24      334        281        206         90,816    100,226     96,091
 18 KS        48,073    55,754    58,277      248       101     554    48,321    55,855    58,830    4,154       3,015       2,731      11,438     24     12,734     23    15,144     26           0          0          0      63,913     71,604     76,705
 19 KY        62,684    64,424    69,530       84       147     102    62,768    64,571    69,632      374        204         592       13,339     21     14,960     23    17,337     25      326        399        388         76,806     80,134     87,949
 20 LA        53,674    56,860    58,392          0      46      74    53,674    56,907    58,466      160        122         176       13,426     25     15,486     27    15,949     27      598       1,244       687         67,858     73,758     75,278
 21 MA        67,770    70,474    73,653      302       734     248    68,072    71,208    73,901      543        434         314       13,292     20     15,508     22    16,134     22      214        634        351         82,120     87,784     90,701
 22 MD        62,284    66,496    69,962      621       386     113    62,904    66,882    70,075          0           0      186       16,229     26     18,208     27    19,559     28       79         48        759         79,211     85,139     90,578
 23 ME        54,707    56,810    60,208          0       0       0    54,707    56,810    60,208          0           0           0    12,339     23     13,366     24    13,545     22           0          0          0      67,046     70,175     73,752
 24 MI        70,884    73,341    76,343    1,461     1,219   1,148    72,345    74,560    77,491      921       1,129       1,050      25,115     35     26,772     36    28,309     37      920        852        906         99,301    103,312    107,756
 25 MN        67,107    67,979    70,172      339       372     276    67,446    68,350    70,449      648       1,694        232       14,620     22     15,563     23    15,795     22      445        457        466         83,159     86,065     86,942
 26 MO        63,165    63,370    68,440    5,252     3,919   2,497    68,417    67,290    70,937    2,259       1,359        798       18,084     26     17,312     26    19,382     27     2,481      1,055      1,303        91,241     87,016     92,421
 27 MS        59,696    61,184    62,472          0       0       0    59,696    61,184    62,472    1,431       1,701       1,872      18,464     31     17,364     28    17,319     28           0          0          0      79,591     80,249     81,663
 28 MT                            45,567                          0                        45,567                                  0                                       12,190     27                                 0                            57,757
 29 NC        57,402    60,821    63,546      177       374      79    57,579    61,195    63,625      353        252         180       13,500     23     14,835     24    14,909     23      132        127        118         71,563     76,409     78,831
 30 ND        62,184    62,772    65,284          0       0       0    62,184    62,772    65,284          0           0           0    14,964     24     16,263     26    16,669     26      454        303        303         77,602     79,338     82,256
 31 NE        62,325   101,253   108,908          0       0       0    62,325   101,253   108,908          0           0           0    24,415     39     17,426     17    18,180     17           0          0          0      86,740    118,680    127,088
 32 NH        71,428    73,233    73,233          0       0       0    71,428    73,233    73,233          0           0           0    21,583     30     20,113     27    20,289     28           0          0          0      93,012     93,347     93,523
 33 NJ        76,261    79,616    81,795      422       316     386    76,683    79,933    82,182      422       1,229        395       24,017     31     26,453     33    27,088     33      141        532        403        101,264    108,146    110,069
 34 NM        51,930    56,561    55,934          0       0       0    51,930    56,561    55,934          0           0           0    12,089     23     13,667     24    13,055     23           0          0          0      64,018     70,228     68,989
 35 NV        79,021    86,805    90,674    6,653     4,005     122    85,674    90,809    90,795    6,359       6,692       4,173      22,704     27     23,847     26    24,230     27           0          0    3,878       114,736    121,348    123,075
 36 NY        66,505    64,957    69,919      122       147     253    66,627    65,104    70,172      554        646         607       19,638     29     19,252     30    21,057     30      470        447        299         87,290     85,449     92,135
 37 OH        69,683    69,598    69,340       11         9     304    69,693    69,607    69,644      177       1,299        389       17,388     25     17,238     25    15,994     23      691       1,540       435         87,949     89,684     86,462
 38 OK        47,162    46,896    51,236      531       513     672    47,693    47,409    51,909      324        248         588       12,037     25     13,075     28    14,894     29           0          0          0      60,054     60,732     67,390
 39 OR        69,170    70,146    69,318      190         0     273    69,360    70,146    69,591    1,948       1,988       1,445      20,554     30     22,528     32    24,977     36           0    1,450       532         91,862     96,112     96,545
 40 PA        67,687    68,423    71,363    1,168     1,677     636    68,854    70,100    71,999      411        218         168       19,135     28     19,534     28    20,023     28      726       1,806       584         89,126     91,658     92,775
 41 PR        47,420    44,849    44,954    1,524     2,027   2,076    48,944    46,876    47,030    2,150        315         503        8,411     17      7,593     16     7,682     16     2,576      1,376       635         62,082     56,160     55,849
 42 RI        74,530    77,800    80,516          0       0       0    74,530    77,800    80,516          0           0           0    31,068     42     33,748     43    38,739     48           0          0          0     105,598    111,548    119,256
 43 SC        47,427    51,843    55,653       51        57      55    47,479    51,900    55,708       58        110         572       13,190     28     14,624     28    15,511     28      153        176        162         60,879     66,809     71,954
 44 SD
 45 TN        63,906    65,609    69,667    1,491     1,901     862    65,397    67,510    70,529      277        280         311       16,596     25     17,368     26    18,189     26      489        760       1,915        82,759     85,919     90,944
 46 TX        70,360    74,849    77,165      742     1,607   1,126    71,103    76,455    78,290      768       1,269       1,160      17,453     25     19,182     25    19,866     25       77         77        194         89,401     96,983     99,511
 47 UT       102,572   111,009   116,197          0      69       0   102,572   111,078   116,197    4,275       1,631       3,769      36,380     35     39,980     36    40,015     34      102       1,911        54        143,329    154,600    160,035
 48 VA        62,581    63,159    67,759       59       425     247    62,640    63,584    68,006    1,605       1,752       2,508      14,681     23     14,922     23    17,016     25       66         65        210         78,992     80,324     87,740
 49 VI        78,333    78,333    78,333          0       0       0    78,333    78,333    78,333          0           0           0    22,720     29     22,720     29    22,720     29           0          0          0     101,053    101,053    101,053
 50 VT        74,044    75,566    77,064          0       0       0    74,044    75,566    77,064          0           0           0    25,487     34     25,936     34    26,454     34           0          0          0      99,531    101,502    103,518
 51 WA        74,960    76,289    80,170      227       120      87    75,186    76,410    80,258      120        124         568       17,642     23     17,672     23    19,242     24       65         48       1,984        93,014     94,253    102,052
 52 WI        64,162    68,120    73,699    1,289     1,312   1,862    65,451    69,432    75,561          1      206              1    18,331     28     21,123     30    20,283     27      155       1,237       155         83,939     91,998     96,001
 53 WV        54,657    54,145    54,584          0       0       0    54,657    54,145    54,584      901        196         206       11,567     21     11,257     21    11,272     21           0          0          0      67,125     65,597     66,062
 54 WY                            65,375                          0                        65,375                                 80                                       20,445     31                                 0                            85,900
Nationwide
             $65,731   $68,044   $70,643     $737      $852    $621   $66,469   $68,897   $71,264     $862       $831        $898      $17,224     26    $18,629     27 $19,384       27     $494       $664       $652        $85,049    $89,021    $92,197



         Montana, South Dakota, and Wyoming are single area states. Information represents data as reported by state officials.
                                                       Local Workforce Investment Act
                                                              Executive Compensation

                                                               ATTACHMENT 2




         SCHEDULE OF AVERAGE LOCAL WIA FUNDING AND
       COMPENSATION ALLOCATION PERCENTAGES BY STATE




U.S. Department of Labor—Office of Inspector General
Report Number: 02-07-204-03-390
                                                                                                                      Attachment 2

             Schedule of Average Local WIA Funding and Compensation Allocation
                            Percentages by State (UNAUDITED)

                         All Compensation                       Compensation Allocation Percentages                  Local WIA Funding
                         Reported for Year                             Last Year Completed                           Reported for Year
                                                                                       Non-WIA Non-WIA
    CT       ST   2004         2005          2006       WIA Adm. WIA Prog. WIA Total Admin        Prog        2004          2005          2006
     1       AK    $89,907      $98,570      $103,258          36        9        45        20       35      $15,860,965   $9,929,745   $20,662,889
     2       AL     87,357       90,520        95,789          40       40        80        20           1    13,858,497   13,110,367    11,666,700
     3       AR     64,197       63,676        67,095          79        9        88        12           0     2,107,305    2,259,716     2,116,797
     4       AZ     73,798       77,552        79,247          13       59        72        22           6     3,477,583    2,832,193     2,469,832
     5       CA    115,276      123,452       129,427          38       45        83        10           7     8,516,904    8,416,865     7,526,477
     6       CO     87,717       88,197        92,327          30       27        57        23       20        4,550,206    4,549,540     4,260,834
     7       CT    115,838      122,775       127,312          38       23        61        26       13        3,947,713    4,383,943     4,635,927
     8       DC    104,365      107,698       120,056          43       24        67         6       27       10,600,987   10,186,207    11,142,359
     9       DE     75,354       87,121        75,202          57        0        57        43           0     6,115,060    6,245,268     6,119,745
    10       FL     91,721       97,454        98,875          34       17        51        30       18        6,649,573    5,756,570     4,690,161
    11       GA     73,217       74,760        75,252          33       55        88         9           3     2,815,362    2,576,809     2,468,063
    12       GU     82,000       78,741        78,782          32        6        38        53           9     4,639,558    4,392,169     6,384,312
    13       HI     59,862       68,524        77,308          15       77        92         7           1     2,454,324    2,022,899     1,875,700
    14       IA     69,848       73,126        73,963          25       40        65        19       16         807,136      829,556       968,637
    15       ID     63,142       63,980        66,938          13       70        83        17           0    11,864,744    9,530,003     7,976,693
    16       IL     80,251       87,112        89,236          40       52        92         5           4     5,605,806    5,281,089     5,682,940
    17       IN     90,816      100,226        96,091          27       55        82         5       13        2,972,475    3,431,959     4,138,197
    18       KS     63,913       71,604        76,705          42       40        82        10           8     3,308,224    3,349,295     4,666,338
    19       KY     76,806       80,134        87,949          48       35        83        13           4     4,241,784    4,175,940     4,845,785
    20       LA     67,858       73,758        75,278          47       42        89         7           4     2,889,392    3,184,363     2,950,722
    21       MA     82,120       87,784        90,701          31       32        63        28       10        2,550,830    3,015,023     3,022,410
    22       MD     79,211       85,139        90,578          20       57        77         7       16        2,483,549    2,375,556     2,326,361
    23       ME     67,046       70,175        73,752          93        0        93         7           0     3,889,242    2,542,814     2,322,818
    24       MI     99,301      103,312       107,756          38       14        52        41           7     4,906,252    4,886,303     5,599,429
    25       MN     83,159       86,065        86,942          28       11        39        51           9     1,550,335    1,582,238     1,536,808
    26       MO     91,241       87,016        92,421          42       31        73        21           5     3,829,205    3,745,387     4,280,989
    27       MS     79,591       80,249        81,663          79       20        99         1           0     8,103,632   19,219,702    10,793,202
    28       MT                                57,757          80        0        80        20           0     5,845,615    5,587,001     5,432,379
    29       NC     71,563       76,409        78,831          61       18        79        15           5     4,488,855    4,061,913     3,431,227
    30       ND     77,602       79,338        82,256          17       24        41         0       59        6,539,557    7,418,542     6,104,666
    31       NE     86,740      118,680       127,088          53        0        53        48           0     2,056,501    2,329,924     2,176,429
    32       NH     93,012       93,347        93,523           5       67        72         4       25        7,574,781    7,422,861     6,796,429
    33       NJ    101,264      108,146       110,069          41       30        71        19           9     3,614,490    3,312,159     2,654,528
    34       NM     64,018       70,228        68,989          64       11        75        17           8     4,010,986    4,012,567     3,706,009
    35       NV    114,736      121,348       123,075          49       51       100         0           0     8,334,604    6,720,698     5,464,175
    36       NY     87,290       85,449        92,135          39       48        87        10           4     5,719,109    5,680,101     5,355,593
    37       OH     87,949       89,684        86,462          52       29        81        17           2     8,325,527    7,358,739     7,273,262
    38       OK     60,054       60,732        67,390          43       45        88         7           5     2,033,903    2,194,986     1,856,274
    39       OR     91,862       96,112        96,545          45       40        85         9           6     9,387,625    8,680,873     7,790,131
    40       PA     89,126       91,658        92,775          42       27        69        23           8     5,765,633    5,627,764     5,356,114
    41       PR     62,082       56,160        55,849          41       58        99         0           2     8,676,824    6,679,339     5,870,140
    42       RI    105,598      111,548       119,256          29       49        78         8       14        3,425,266    3,620,122     3,137,276
    43       SC     60,879       66,809        71,954          37       55        92         4           4     3,419,266    3,986,961     4,673,457
    44       SD                                               100        0       100         0           0     5,670,656    5,331,488     5,657,596
    45       TN     82,759       85,919        90,944          37       47        84        15           1     4,256,218    4,132,983     4,362,308
    46       TX     89,401       96,983        99,511          26       16        42        40       18        8,257,350   10,091,119     9,343,755
    47       UT    143,329      154,600       160,035           2        0         2        98           0    14,329,356   18,340,346    16,157,050
    48       VA     78,992       80,324        87,740          45       39        84         8           8     2,213,066    2,148,773     1,730,378
    49       VI    101,053      101,053       101,053          22       22        44        28       28        2,072,462    2,834,280     2,504,885
    50       VT     99,531      101,502       103,518         100        0       100         0           0     7,284,398    5,766,643     5,730,857
    51       WA     93,014       94,253       102,052          52       39        91         6           4     6,931,399    6,387,967     5,297,476
    52       WI     83,939       91,998        96,001          51       34        85        10           5     4,059,589    4,270,667     3,923,029
    53       WV     67,125       65,597        66,062          25       62        87        12           1     3,159,933    2,299,359     1,865,989
    54       WY                                85,900          42        0        42        58           0                  5,523,805     5,258,320


Nationwide         $85,049      $89,021       $92,197          39       37        76        17           7    $5,066,592   $5,030,098    $4,734,340
                                                       Local Workforce Investment Act
                                                              Executive Compensation

                                                               ATTACHMENT 3




  SCHEDULE OF AVERAGE LWIA COMPENSATION BY ETA REGION




U.S. Department of Labor—Office of Inspector General
Report Number: 02-07-204-03-390
                                               Schedule of Average LWIA Compensation by ETA Region (UNAUDITED)                                                                                                                                                   Attachment 3
                                                Annualized Base Salary                   Bonus                  Salary and Bonus          Other Compensation                      Annualized Fringe Benefits                   Other Benefits                   AllpCompensation
                                                 Reported for Year (A)        Reported for Year (B) Reported for Year (A+B)               Reported for Year (C)                     Reported for Year (D)                   Reported for Year (E)                 (A+B+C+D+E)
   ETA Region




                                                                                                                                                                                      %                 %       % Sal
                                                                                                                                                                                     Sal +             Sal +     +
                               CT    ST        2004       2005      2006      2004       2005       2006       2004     2005     2006     2004       2005       2006       2004      Bns     2005      Bns 2006 Bns         2004       2005       2006       2004      2005       2006
                                1    CT         $89,670   $93,726   $97,469     $450     $1,167     $1,005 $90,120 $94,893 $98,474         $581       $693       $694      $24,505      27   $26,534     28 $27,480    28    $632       $654       $664 $115,838       $122,775 $127,312
                                2   MA           67,770    70,474    73,653     302        734        248      68,072   71,208   73,901     543        434        314       13,292      20    15,508     22   16,134   22     214        634        351       82,120     87,784    90,701
                                3   ME           54,707    56,810    60,208          0          0          0   54,707   56,810   60,208          0          0          0    12,339      23    13,366     24   13,545   22          0          0          0    67,046     70,175    73,752
   Region I - Boston




                                4    NH          71,428    73,233    73,233          0          0          0   71,428   73,233   73,233          0          0          0    21,583      30    20,113     27   20,289   28          0          0          0    93,012     93,347    93,523
                                5    NJ          76,261    79,616    81,795     422        316        386      76,683   79,933   82,182     422       1,229       395       24,017      31    26,453     33   27,088   33     141        532        403      101,264    108,146   110,069
                                6    NY          66,505    64,957    69,919     122        147        253      66,627   65,104   70,172     554        646        607       19,638      29    19,252     30   21,057   30     470        447        299       87,290     85,449    92,135
                                7    PR          47,420    44,849    44,954    1,524      2,027      2,076     48,944   46,876   47,030    2,150       315        503        8,411      17     7,593     16    7,682   16    2,576      1,376       635       62,082     56,160    55,849
                                8    RI          74,530    77,800    80,516          0          0          0   74,530   77,800   80,516          0          0          0    31,068      42    33,748     43   38,739   48          0          0          0   105,598    111,548   119,256
                                9    VI          78,333    78,333    78,333          0          0          0   78,333   78,333   78,333          0          0          0    22,720      29    22,720     29   22,720   29          0          0          0   101,053    101,053   101,053
                               10    VT          74,044    75,566    77,064          0          0          0   74,044   75,566   77,064          0          0          0    25,487      34    25,936     34   26,454   34          0          0          0    99,531    101,502   103,518
                                    Reg Avgs     66,149    66,953    70,100      479       656        617      66,627   67,609   70,717     792        613        455       17,516      26    18,474     27   19,466   28     742        639        384       85,678     87,334    91,022
                               11    DC          94,020    96,989   105,803          0          0    2,667     94,020   96,989 108,470           0          0          0    10,345      11    10,708     11   11,586   11          0          0          0   104,365    107,698   120,056
                               12    DE          55,217    62,196    59,954          0          0          0   55,217   62,196   59,954          0          0          0    20,137      36    24,532     39   15,248   25          0     394             0    75,354     87,121    75,202
Philadelphia
 Region II -




                               13   MD           62,284    66,496    69,962     621        386        113      62,904   66,882   70,075          0          0     186       16,229      26    18,208     27   19,559   28      79         48        759       79,211     85,139    90,578
                               14    PA          67,687    68,423    71,363    1,168      1,677       636      68,854   70,100   71,999     411        218        168       19,135      28    19,534     28   20,023   28     726       1,806       584       89,126     91,658    92,775
                               15    VA          62,581    63,159    67,759      59        425        247      62,640   63,584   68,006    1,605      1,752      2,508      14,681      23    14,922     23   17,016   25      66         65        210       78,992     80,324    87,740
                               16   WV           54,657    54,145    54,584          0          0          0   54,657   54,145   54,584     901        196        206       11,567      21    11,257     21   11,272   21          0          0          0    67,125     65,597    66,062
                                    Reg Avgs     64,128    65,467    68,656      624       881        397      64,752   66,348   69,053     625        474        617       16,409      25    17,070     26   17,906   26     331        803        452       82,117     84,696    88,028
                               17    AL          70,396    72,586    76,740     200        700        786      70,596   73,286   77,526          0          0          0    16,761      24    17,234     24   18,263   24          0          0          0    87,357     90,520    95,789
   Region III - Atlanta




                               18    FL          71,483    75,381    77,032    2,088      2,859      2,469     73,571   78,240   79,501     859       1,091       474       16,255      22    17,451     22   17,913   23    1,036       671        987       91,721     97,454    98,875
                               19    GA          58,222    59,246    60,052      46        260         89      58,267   59,506   60,141    1,416      1,016       766       13,470      23    13,979     23   14,037   23      63        259        307       73,217     74,760    75,252
                               20    KY          62,684    64,424    69,530      84        147        102      62,768   64,571   69,632     374        204        592       13,339      21    14,960     23   17,337   25     326        399        388       76,806     80,134    87,949
                               21   MS           59,696    61,184    62,472          0          0          0   59,696   61,184   62,472    1,431      1,701      1,872      18,464      31    17,364     28   17,319   28          0          0          0    79,591     80,249    81,663
                               22    NC          57,402    60,821    63,546     177        374         79      57,579   61,195   63,625     353        252        180       13,500      23    14,835     24   14,909   23     132        127        118       71,563     76,409    78,831
                               23    SC          47,427    51,843    55,653      51         57         55      47,479   51,900   55,708      58        110        572       13,190      28    14,624     28   15,511   28     153        176        162       60,879     66,809    71,954
                               24    TN          63,906    65,609    69,667    1,491      1,901       862      65,397   67,510   70,529     277        280        311       16,596      25    17,368     26   18,189   26     489        760       1,915      82,759     85,919    90,944
                                    Reg Avgs     61,810    64,475    67,068      811      1,151       818      62,621   65,625   67,886     659        624        494       14,788      24    15,791     24   16,335   24     415        402        634       78,483     82,443    85,349
                               25    AR          46,538    46,757    50,025     714        525        589      47,252   47,281   50,614     782        289             0    15,970      34    15,913     34   16,270   32     193        193        211       64,197     63,676    67,095
                               25   CO           70,540    70,291    70,684     179        284        404      70,718   70,576   71,087     543        525        523       16,095      23    15,979     23   17,247   24     360       1,117      3,469      87,717     88,197    92,327
                               27    LA          53,674    56,860    58,392          0      46         74      53,674   56,907   58,466     160        122        176       13,426      25    15,486     27   15,949   27     598       1,244       687       67,858     73,758    75,278
   Region IV - Dallas




                               28    MT                              45,567                                0                     45,567                                0                                      12,190   27                                0                         57,757
                               29    ND          62,184    62,772    65,284          0          0          0   62,184   62,772   65,284          0          0          0    14,964      24    16,263     26   16,669   26     454        303        303       77,602     79,338    82,256
                               30   NM           51,930    56,561    55,934          0          0          0   51,930   56,561   55,934          0          0          0    12,089      23    13,667     24   13,055   23          0          0          0    64,018     70,228    68,989
                               31    OK          47,162    46,896    51,236      531       513        672      47,693   47,409   51,909     324        248        588       12,037      25    13,075     28   14,894   29          0          0          0    60,054     60,732    67,390
                               32    SD
                               33    TX          70,360    74,849    77,165     742       1,607      1,126     71,103   76,455   78,290     768       1,269      1,160      17,453      25    19,182     25   19,866   25      77         77        194       89,401     96,983    99,511
                               34    UT         102,572   111,009   116,197          0      69             0 102,572 111,078 116,197       4,275      1,631      3,769      36,380      35    39,980     36   40,015   34     102       1,911        54      143,329    154,600   160,035
                               35   WY                               65,375                                0                     65,375                            80                                         20,445   31                                0                         85,900
                                    Reg Avgs     61,078    63,808    65,474      429       718        589      61,507   64,526   66,063     585        630        637       15,759      26    17,167     27   17,667   27     238        518        660       78,088     82,842    85,027
                               36    IA          53,881    56,370    56,762      710       721        171      54,591   57,091   56,933     520        558        580       14,690      27    15,407     27   15,393   27      48         70       1,056      69,848     73,126    73,963
                               37    IL          63,748    67,607    70,714     348        565        302      64,096   68,172   71,016     515        684        423       15,511      24    17,422     26   17,659   25     129        835        146       80,251     87,112    89,236
   Region V - Chicago




                               38    IN          69,535    75,743    69,956     545       1,739       128      70,080   77,482   70,084    2,954      3,627      8,798      17,448      25    18,837     24   17,002   24     334        281        206       90,816    100,226    96,091
                               39    KS          48,073    55,754    58,277      248       101        554      48,321   55,855   58,830    4,154      3,015      2,731      11,438      24    12,734     23   15,144   26          0          0          0    63,913     71,604    76,705
                               40    MI          70,884    73,341    76,343    1,461      1,219      1,148     72,345   74,560   77,491     921       1,129      1,050      25,115      35    26,772     36   28,309   37     920        852        906       99,301    103,312   107,756
                               41   MN           67,107    67,979    70,172     339        372        276      67,446   68,350   70,449     648       1,694       232       14,620      22    15,563     23   15,795   22     445        457        466       83,159     86,065    86,942
                               42   MO           63,165    63,370    68,440    5,252      3,919      2,497     68,417   67,290   70,937    2,259      1,359       798       18,084      26    17,312     26   19,382   27    2,481      1,055      1,303      91,241     87,016    92,421
                               43    NE          62,325   101,253   108,908          0          0          0   62,325 101,253 108,908            0          0          0    24,415      39    17,426     17   18,180   17          0          0          0    86,740    118,680   127,088
                               44   OH           69,683    69,598    69,340      11             9     304      69,693   69,607   69,644     177       1,299       389       17,388      25    17,238     25   15,994   23     691       1,540       435       87,949     89,684    86,462
                               45    WI          64,162    68,120    73,699    1,289      1,312      1,862     65,451   69,432   75,561          1     206             1    18,331      28    21,123     30   20,283   27     155       1,237       155       83,939     91,998    96,001
                                    Reg Avgs     65,017    68,009    70,337    1,128      1,096       768      66,145   69,106   71,105     964       1,220      1,381      17,856      27    19,019     28   19,189   27     584        797        500       85,549     90,142    92,174
                               46    AK          69,651    72,885    72,824          0          0          0   69,651   72,885   72,824          0          0          0    19,928      29    24,608     34   28,941   40     328       1,077      1,493      89,907     98,570   103,258
   Region VI - San Francisco




                               47    AZ          57,007    61,604    63,152    1,133            0          0   58,139   61,604   63,152    2,233            0          0    13,323      23    15,810     26   15,932   25     103        139        163       73,798     77,552    79,247
                               48    CA          87,339    90,312    93,254     689        679        513      88,028   90,991   93,767    1,445      1,479      2,331      24,887      28    29,682     33   31,692   34     916       1,300      1,637     115,276    123,452   129,427
                               49   GU           66,319    63,774    64,799          0          0          0   66,319   63,774   64,799          0          0          0    15,681      24    14,967     23   13,984   22          0          0          0    82,000     78,741    78,782
                               50    HI          46,444    53,508    57,103          0          0          0   46,444   53,508   57,103     234        534        544       13,146      28    14,439     27   19,642   34      38         43         19       59,862     68,524    77,308
                               51    ID          51,850    51,908    54,444          0          0          0   51,850   51,908   54,444          0          0          0    11,292      22    12,072     23   12,494   23          0          0          0    63,142     63,980    66,938
                               52    NV          79,021    86,805    90,674    6,653      4,005       122      85,674   90,809   90,795    6,359      6,692      4,173      22,704      27    23,847     26   24,230   27          0          0    3,878     114,736    121,348   123,075
                               53   OR           69,170    70,146    69,318     190             0     273      69,360   70,146   69,591    1,948      1,988      1,445      20,554      30    22,528     32   24,977   36          0    1,450       532       91,862     96,112    96,545
                               54   WA           74,960    76,289    80,170     227        120         87      75,186   76,410   80,258     120        124        568       17,642      23    17,672     23   19,242   24      65         48       1,984      93,014     94,253   102,052
                                    Reg Avgs     76,449    79,533    82,661      753       468        313      77,202   80,001   82,974    1,459      1,180      1,584      20,820      27    24,093     30   26,104   31     493        861       1,342      99,974    106,134   112,004


  Nationwide Averages                           $65,731   $68,044   $70,643     $737      $852       $621 $66,469 $68,897 $71,264          $862       $831       $898      $17,224      26   $18,629     27 $19,384    27    $494       $664       $652      $85,049    $89,021   $92,197
                                                       Local Workforce Investment Act
                                                              Executive Compensation

                                                               ATTACHMENT 4




       SCHEDULE OF AVERAGE LOCAL WIA FUNDING AND
   COMPENSATION ALLOCATION PERCENTAGES BY ETA REGION




U.S. Department of Labor—Office of Inspector General
Report Number: 02-07-204-03-390
                                                                                                                                                            Attachment 4
                                 Schedule of Average Local WIA Funding and Compensation Allocation
                                             Percentages by ETA Region (UNAUDITED)
                                                        All Compensation                       Compensation Allocation Percentages                              Local WIA Funding
                                                        Reported for Year                            Last Year Completed                                        Reported for Year
     ETA Region




                                                                                                                          Non-WIA        Non-WIA
                                    CT      ST   2004         2005          2006       WIA Adm. WIA Prog. WIA Total       Admin          Prog            2004         2005          2006
                                     1      CT   $115,838     $122,775      $127,312          38        23         61               26             13   $3,947,713   $4,383,943   $4,635,927
                                     2      MA     82,120       87,784        90,701          31        32         63               28             10    2,550,830    3,015,023    3,022,410
                                     3      ME     67,046       70,175        73,752          93         0         93                7              0    3,889,242    2,542,814    2,322,818
     Region I - Boston




                                     4      NH     93,012       93,347        93,523           5        67         72                4             25    7,574,781    7,422,861    6,796,429
                                     5      NJ    101,264      108,146       110,069          41        30         71               19              9    3,614,490    3,312,159    2,654,528
                                     6      NY     87,290       85,449        92,135          39        48         87               10              4    5,719,109    5,680,101    5,355,593
                                     7      PR     62,082       56,160        55,849          41        58         99                0              2    8,676,824    6,679,339    5,870,140
                                     8      RI    105,598      111,548       119,256          29        49         78                8             14    3,425,266    3,620,122    3,137,276
                                     9      VI    101,053      101,053       101,053          22        22         44               28             28    2,072,462    2,834,280    2,504,885
                                     10     VT     99,531      101,502       103,518         100         0        100                0              0    7,284,398    5,766,643    5,730,857
                                 Reg Avgs          85,678       87,334        91,022          38        41         79               13              8    5,032,796    4,696,330    4,319,837
                                     11     DC    104,365      107,698       120,056          43        24         67                6             27   10,600,987   10,186,207   11,142,359
                                     12     DE     75,354       87,121        75,202          57         0         57               43              0    6,115,060    6,245,268    6,119,745
  Philadelphia
   Region II -




                                     13     MD     79,211       85,139        90,578          20        57         77                7             16    2,483,549    2,375,556    2,326,361
                                     14     PA     89,126       91,658        92,775          42        27         69               23              8    5,765,633    5,627,764    5,356,114
                                     15     VA     78,992       80,324        87,740          45        39         84                8              8    2,213,066    2,148,773    1,730,378
                                     16     WV     67,125       65,597        66,062          25        62         87               12              1    3,159,933    2,299,359    1,865,989
                                 Reg Avgs          82,117       84,696        88,028          35        40         75               15             10    3,969,038    3,770,797    3,485,284
                                     17     AL     87,357       90,520        95,789          40        40         80               20              1   13,858,497   13,110,367   11,666,700
     Region III - Atlanta




                                     18     FL     91,721       97,454        98,875          34        17         51               30             18    6,649,573    5,756,570    4,690,161
                                     19     GA     73,217       74,760        75,252          33        55         88                9              3    2,815,362    2,576,809    2,468,063
                                     20     KY     76,806       80,134        87,949          48        35         83               13              4    4,241,784    4,175,940    4,845,785
                                     21     MS     79,591       80,249        81,663          79        20         99                1              0    8,103,632   19,219,702   10,793,202
                                     22     NC     71,563       76,409        78,831          61        18         79               15              5    4,488,855    4,061,913    3,431,227
                                     23     SC     60,879       66,809        71,954          37        55         92                4              4    3,419,266    3,986,961    4,673,457
                                     24     TN     82,759       85,919        90,944          37        47         84               15              1    4,256,218    4,132,983    4,362,308
                                 Reg Avgs          78,483       82,443        85,349          42        36         78               16              6    4,876,358    4,970,194    4,397,244
                                     25     AR     64,197       63,676        67,095          79         9         88               12              0    2,107,305    2,259,716    2,116,797
                                     25     CO     87,717       88,197        92,327          30        27         57               23             20    4,550,206    4,549,540    4,260,834
                                     27     LA     67,858       73,758        75,278          47        42         89                7             4     2,889,392    3,184,363    2,950,722
     Region IV - Dallas




                                     28     MT                                57,757          80         0         80               20              0    5,845,615    5,587,001    5,432,379
                                     29     ND     77,602       79,338        82,256          17        24         41                0             59    6,539,557    7,418,542    6,104,666
                                     30     NM     64,018       70,228        68,989          64        11         75               17             8     4,010,986    4,012,567    3,706,009
                                     31     OK     60,054       60,732        67,390          43        45         88               7              5     2,033,903    2,194,986    1,856,274
                                     32     SD                                               100         0        100                0              0    5,670,656    5,331,488    5,657,596
                                     33     TX     89,401       96,983        99,511          26        16         42               40             18    8,257,350   10,091,119    9,343,755
                                     34     UT    143,329      154,600       160,035           2         0            2             98             0    14,329,356   18,340,346   16,157,050
                                     35     WY                                85,900          42         0         42               58             0                  5,523,805    5,258,320
                                 Reg Avgs          78,088       82,842        85,027          41        25         66               23             11    4,993,387    5,715,402    5,232,127
                                     36     IA     69,848       73,126        73,963          25        40         65               19             16     807,136      829,556       968,637
                                     37     IL     80,251       87,112        89,236          40        52         92               5              4     5,605,806    5,281,089    5,682,940
     Region V - Chicago




                                     38     IN     90,816      100,226        96,091          27        55         82               5              13    2,972,475    3,431,959    4,138,197
                                     39     KS     63,913       71,604        76,705          42        40         82               10             8     3,308,224    3,349,295    4,666,338
                                     40     MI     99,301      103,312       107,756          38        14         52               41             7     4,906,252    4,886,303    5,599,429
                                     41     MN     83,159       86,065        86,942          28        11         39               51             9     1,550,335    1,582,238    1,536,808
                                     42     MO     91,241       87,016        92,421          42        31         73               21             5     3,829,205    3,745,387    4,280,989
                                     43     NE     86,740      118,680       127,088          53         0         53               48             0     2,056,501    2,329,924    2,176,429
                                     44     OH     87,949       89,684        86,462          52        29         81               17             2     8,325,527    7,358,739    7,273,262
                                     45     WI     83,939       91,998        96,001          51        34         85               10             5     4,059,589    4,270,667    3,923,029
                                 Reg Avgs          85,549       90,142        92,174          39        35         74               19             7     4,181,543    4,150,011    4,476,574
                                     46     AK     89,907       98,570       103,258          36         9         45               20             35   15,860,965    9,929,745   20,662,889
     Region VI - San Francisco




                                     47     AZ     73,798       77,552        79,247          13        59         72               22             6     3,477,583    2,832,193    2,469,832
                                     48     CA    115,276      123,452       129,427          38        45         83               10             7     8,516,904    8,416,865    7,526,477
                                     49     GU     82,000       78,741        78,782          32         6         38               53             9     4,639,558    4,392,169    6,384,312
                                     50     HI     59,862       68,524        77,308          15        77         92               7              1     2,454,324    2,022,899    1,875,700
                                     51     ID     63,142       63,980        66,938          13        70         83               17             0    11,864,744    9,530,003    7,976,693
                                     52     NV    114,736      121,348       123,075          49        51        100               0              0     8,334,604    6,720,698    5,464,175
                                     53     OR     91,862       96,112        96,545          45        40         85               9              6     9,387,625    8,680,873    7,790,131
                                     54     WA     93,014       94,253       102,052          52        39         91               6              4     6,931,399    6,387,967    5,297,476
                                 Reg Avgs          99,974      106,134       112,004          36        46         82               12             6     7,416,014    6,992,398    6,331,056


Nationwide Averages                               $85,049      $89,021       $92,197          39        37         76               17             7    $5,066,592   $5,030,098   $4,734,340
